Case: 19-1811

Document: 37

Page: 1

Filed: 05/11/2020

NOTE: This disposition is nonprecedential.

QSntteb States Court of Appeals
for tfje jfeUeral Circuit
LILIBETH MICHELSON,
Petitioner
v.
DEPARTMENT OF THE ARMY,
Respondent
2019-1811
Petition for review of the Merit Systems Protection
Board in No. AT-0752-18-0424-1-1.
Decided: May 11, 2020
Jack Bradley Jarrett, III, Alan Lescht and Associ­
ates, PC, Washington, DC, for petitioner.
ISAAC B. Rosenberg, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent. Also represented by JOSEPH H.
Hunt, Reginald Thomas Blades, Jr., Robert Edward
Kirschman, Jr.

1a

Case: 19-1811

Document: 37

2

Page: 2

Filed: 05/11/2020

MICHELSON v. ARMY

Before CHEN, LINN, and STOLL, Circuit Judges.
Per Curiam.
Lilibeth Michelson (“Michelson”), a former Supply
Technician at the Reserve Officer Training Corps in Day­
tona Beach, Florida, appeals from the final decision of the
Merit Systems Protection Board (“Board”), stemming from
the Initial Decision of the Administrative Judge (“AJ”), af­
firming her removal from Federal Service based on three
charges: (1) absent without leave (“AWOL”) from January
9, 2018 through January 19, 2018; (2) failure to follow di­
rections on January 29, 2018; and (3) creating a disturb­
ance on January 29, 2018. Michelson v. Dep’t of the Army,
No. AT-0752-18-0424-1-1 (Dec. 21, 2018) (“Initial Deci­
sion”). Because the AJ’s Initial Decision was in accordance
with law and supported by substantial evidence, we affirm.
Petitioner has the burden to show that the agency ac­
tion is “(1) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law; (2) obtained without
procedures required by law, rule, or regulation having been
followed; or (3) unsupported by substantial evidence.”
5 U.S.C. § 7703(c).
With regard to the first charge, Michelson argues that
the AJ erred by not accepting an October 25, 2018 letter
from nurse practitioner Anthony Lagana as administra­
tively acceptable evidence of Michelson’s anxiety and de­
pression during the AWOL period. Substantial evidence
supports the AJ’s finding that Lagana’s October 25, 2018
letter was not administratively acceptable.1 As the AJ cor­
rectly found, several problems undermine the force of that
letter. Most fundamentally, the letter does not go into de­
tail about the relationship between Michelson’s anxiety

i

Because the letter was found not to be administra­
tively acceptable, we need not address whether the letter,
dated after Michelson’s removal, was properly considered.

2a

Case: 19-1811

Document: 37

Page: 3

Filed: 05/11/2020

3

MICHELSON V. ARMY

and depression and her inability to perform her work. Ra­
ther, the letter was conclusory in its key statements that
“Ms. Michelson needed to be off work until 1/19/18 for med­
ical purposes due to her anxiety and depression,” and was
“medically incapacitated and unable to attend work.” J.A.
42. See Young u. U.S. Postal Serv., 79 M.S.P.R. 25, 33
(1998) (rejecting, due to a “lack of detail as to the medical
condition, the diagnosis and prognosis,” a letter stating
that “the appellant was unable to work” because “she was
‘overwhelmed and depressed’”). Moreover, the letter’s con­
clusions were based on Michelson’s appointment with
nurse practitioner Kayla Ritzel on December 13, 2017, a
visit that was scheduled as a follow-up visit for a sore
throat. According to the contemporaneous progress notes
of that appointment, anxiety was discussed, but there is no
indication that Michelson would be imminently unable to
perform her work duties. Indeed, the notes show that,
while Michelson requested a month off “to help her anxiety,
depression and get her started on her new meds,” J.A. 76,
Ritzel made no determination that this was a medical ne­
cessity.
Moreover, as detailed in the Agency’s removal letter,
Michelson had thrice sought and been denied various types
of leave for much of the time period for which she was
AWOL: once as annual leave (January 8 through 19), once
to take care of her ill father (January 8 through 16), and
once based on a December 15, 2017 letter from Ritzel (De­
cember 18 through January 19).
Additionally, Michelson argues that the AJ refused to
consider Lagana’s letter of October 25 because it was sub­
mitted after the AJ’s determination, and that this was error. See Initial Decision at 14 (“Further, the appellant
failed to provide this information to the agency in a timely
manner even in response to the notice of proposed removal.
Thus, the agency’s AWOL decision remains appropriate”
(citing Atchley v. Dept’ of the Army, 46 M.S.P.R. 297, 301
(1990))). However, the AJ did, in fact, consider that letter,

3a

Case: 19-1811

Document: 37

4

Page: 4

Filed: 05/11/2020

MICHELSON v. ARMY

and found it to be not administratively acceptable for sub­
stantive reasons. Id. at 13-14 (“[E]ven if [Lagana’s letter]
had been timely submitted, this note does not comply with
the leave restriction letter because it is conclusory and fails
to explain the appellant’s incapacitation.”).
Charges 2 and 3 address Michelson’s actions on Janu­
ary 29, 2018, the first day of her suspension.2 With respect
to charge 2—failure to follow directions by going to work on
January 29, 2018—Michelson argues that the letter sus­
pending her was ambiguous as to whether her suspension
began upon receipt of the standard form 50 or on a date
certain. The letter stated: “[Y]ou will be suspended from
duty without pay for seven (7) calendar days beginning
Monday, 29 January 2018 through Sunday, 4 February
2018,” and “A Standard Form 50, Notification of Personnel
Action, documenting your suspension will be forwarded
separately.” J.A. 93.
As the AJ correctly found, Michelson’s suspension un­
ambiguously began on January 29, and was not contingent
on the receipt of Standard Form 50. Initial Decision at 15
(“COL Kraft’s letter is unambiguous that the appellant was
to be suspended on January 29, 2018. While it does state
that an SF-50 will be issued, it does not indicate that the
suspension will be held in abeyance until CPAC issues the
SF-50.”). “The appellant does not dispute that she came to
work on January 25, 2018.” Id. Substantial evidence sup­
ports the AJ’s determination that Michelson failed to follow
the unambiguous instruction not to be at work on January
29.
Michelson exacerbated that failure by remaining on
campus at the computer lab after she was explicitly told to
“leave the premises because she was officially suspended.”

2 The suspension was independent of the AWOL
dates in charge 1.

4a

Case: 19-1811

Document: 37

Page: 5

Filed: 05/11/2020

5

MICHELSON v. ARMY

Id. at 16. The AJ was within her discretion to credit the
contemporaneous statement by CPT Karlewicz about the
interaction and to discount Michelson’s assertion that she
did not understand that “premises” referred to the whole
campus and not just the supply room. Substantial evidence
thus supports the AJ’s determination as to charge 2.
Charge 3—creating a disturbance by failing to leave
the premises—is also supported by substantial evidence.
Michelson argues that she was not violent and did not
curse or resist when found in the computer lab, and there­
fore was not creating a disturbance. However, Michelson’s
failure to leave after her confrontation with Karlewicz ne­
cessitated an “unnecessary[ily] disruptive]” search of “the
work place,” J.A. 82, and an escort to ensure Michelson left
the premises. The determination of whether that “re­
sult [ed] in an adverse effect on morale, production, or
maintenance of proper discipline,” AR 690-700, Chapter
751, was within the Agency’s discretion.
Finally, we reject Michelson’s challenge to the Agency’s
choice to remove Michelson from her position. Michelson
failed to establish that the AJ erred in sustaining any of
the Agency’s three charges. Moreover, as the AJ correctly
observed, the Agency considered and balanced all of the rel­
evant factors set forth in Douglas v. Department of Veter­
ans Affairs, 5 M.S.P.R. 289, 305-06 (1981), including
Michelson’s length of service with the Agency, in selecting
the penalty of removal. Initial Decision at 23—24. We agree
with the AJ that the Agency’s penalty did not “clearly ex­
ceed^ the bounds of reasonableness.” Parker v. U.S. Postal
Seru., Ill M.S.P.R. 510, 514 (2009), aff’d, 355 F. App’x 410
(Fed. Cir. 2009).
'k

k k

For all the above reasons, we hold that the Board’s de­
cision was in accordance with law and supported by sub­
stantial evidence.

5a

Case: 19-1811

Document: 37

Page: 6

6

Filed: 05/11/2020

MICHELSON v. ARMY

AFFIRMED
Costs
No costs.

6a

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
ATLANTA REGIONAL OFFICE

LILIBETH MICHELSON,
'
Appellant,

DOCKET NUMBER
AT-0752-18-0424-1-1

v.
DEPARTMENT OF THE ARMY,
Agency.

DATE: December 21, 2018

Victoria M. Harrison. Washington, D.C., for the appellant.
G. Houston Parrish. Esquire, Fort Knox, Kentucky, for the agency.
BEFORE
Sherry Linville
Administrative Judge
INITIAL DECISION
On April 29, 2018, the appellant filed an appeal with the Atlanta Regional
Office of the agency’s decision to remove her from the position of Supply
Technician (MVO), GS-2005-07, with the U.S. Army, Cadet Command, Embry
Riddle Aeronautical University (ERAU), Daytona Beach, Florida, effective April
16, 2018. Appeal File (AF), Tab 1. The Board has jurisdiction over this appeal.
See 5 U.S.C. §§ 7511(a)(1)(A), 7512(1) & 7513(d). The appellant waived her
right to a hearing, and this decision is based on the written record. AF, Tab 34.
For the reasons set forth below, the agency’s action is AFFIRMED.

7a

2

ANALYSIS AND FINDINGS
Background
The appellant held the position of Supply Technician (MVO), GS-2005-07,
assigned to the Reserve Officer Training Corps (ROTC) at ERAU in Daytona,
Beach, Florida. AF, Tab 6 at 28.' Her job duties included being responsible for
the ROTC “supply program for the host University and affiliates within the Task
Force structure,” which included providing “staff assistance to all areas of supply
and logistics management;” managing the supply budget; maintaining an adequate
inventory of the unit’s supplies; controlling the “unit arms, ammunition, and
equipment;” and maintaining the proper requisition records. AF, Tab 6 at 59-68.
On May 22, 2017, Brett Chereskin, MAJ, AV, Assistant Professor of
Military Science, issued the appellant a memorandum that addressed issues
surrounding her requests for sick leave. AF, Tab 6 at 44-46. Specifically, it
indicated that on May 11, 2017, she called in sick, but she refused “to provide
documentation to support that [she was] incapacitated for duty or had even
attended a medical appointment on this date.” Id. The memo cited 5 C.F.R.
§ 630.405(a), which outlines the agency authority to request administratively
acceptable evidence to justify a sick leave request. Id. The memo directed the
appellant to provide administratively acceptable evidence of her doctor’s visit by
May 30, 2017. Id. Further, it indicated that “this is not the first time that you have
called out on sick leave or scheduled ‘sick leave’ for dates/times that conflict
with cadet events and significant work obligations,” and that on May 11, 2017,
the appellant “had significant duty obligations for receiving turn-in of cadet
equipment and had scheduled several appointments with Cadets for this purpose.”
Id. Also, the memo warned that “[institution of a leave restriction may be
warranted if it is determined that you are abusing sick leave.” Id.

All citations are to the Board’s electronic record.

8a

3

With regard to this issue, MAJ Chereskin issued the appellant a second
memorandum on June 15, 2017. AF, Tab 6 at 47-48. In this memo, MAJ
Chereskin acknowledged that the appellant provided medical documentation to
justify her absence on May 11, 2017, and her time was changed to indicate sick
leave. Id. However, the memo further stated that the appellant failed to cooperate
as follows:
In a counseling dated 22 May 2017, I directed you to produce
documentation from a doctor that justified changing 11 May 2017
time period from AWOL to sick leave. On 05 June 2017 you
provided me those documents and I coordinated with BDE to alter
your time card from AWOL to sick leave. I received guidance from
BDE that you needed to just go in to the computer system and
“concur” the alteration in order for it to process correctly. In an
email dated 06 June 2017, I asked that you re-concur your timecard
starting 30 April to account for the alteration from AWOL to sick
leave. I called you on 09 June and asked if you have completed the
task that was given to you via email on 06 June and you said that you
will not do it because you already concurred the original time card
that depicted the 11th as sick leave and you said that “if it needs to be
re-concurred, someone else could do it, just like when they changed
it from sick leave to AWOL.” I provided you a legal and ethical
order which was in support of altering a time card from AWOL to
sick leave. You flat out refused to comply with this order and you
were blatantly insubordinate by telling me someone else must concur
your time card for you instead of taking care of a personal
responsibility.
On 13 June you received an email from Joyce Stamper to once again
concur the timecard starting on 30 April. I called at 1030 on the 13th
to confirm that you did it and you said yes. By blatantly disregarding
a lawful order you showed me that you have no respect for your
direct chain of command and will only execute order from sources
above the direct chain of command when you chose. This causes the
unit and the BDE to have to provide double and triple guidance
which causes an undue burden to the BDE staff and specifically the
BDE SI personnel in regards to this particular situation.
This is the second time you refused to follow orders regarding time
card management and it has become a pattern. In the rating period
starting on 16 April you were directed to put the overtime you
worked on 27 April into the pay system and you refused to do so

9a

4

until being ordered via the counseling statement dated 22 May 2017.
During the previous incident you caused both the BN' and BDE chain
of command to take additional steps in order to ensure you executed
a personal responsibility. Your inability to follow orders and manage
the personal responsibility of time card management is becoming a
time consuming and heavily resourced event on a consistent basis. In
the future I ask that you follow all regulations orders related to time
card management. Continued failure to comply with directives, to
include time card management, or directives associated with the
duties of your position will result in disciplinary action, up to and
including removal from your position and federal service.
Id.
Two weeks later, on June 29, 2017, MAJ Chereskin issued the appellant a
performance counseling memorandum.2 AF, Tab 6 at 96-106. Section 12
addressed leave procedures and provided:
All (annual, credit hours, compensatory time, leave without pay
(LWOP), and sick) leave usage is to be requested, scheduled and
approved in advance by your supervisor in writing, the OPM Form
71 (Request for Leave or Approved Absence) may be used.
Emergency leave requests will be completed within (how many)
hours of return to work.
Annual leave of one or more weeks in duration will be projected out
at least (insert number) days in advance and are subject to the needs
of service.
Emergencies do arise that preclude advance notice of advance
approval. When emergency situations occur, you shall, in the
absence of compelling circumstances, ensure that you notify me. If I
am on leave or otherwise unreachable for more than two hours, the
alternate POC is the PMS. When you must take annual leave for
emergency reasons, you will describe the situation and give some
estimation of how long the request is for.
Id. at 100.
Under the heading of Sick Leave, the memo provided the procedures the
appellant should follow:

2 The appellant refused to sign the June 29, 2017 memorandum. AF, Tab 6 at 96-106.

10a

5

Notification will be made to me, (MAJ Chereskin) at (Office
386.226.6469 or [Cell] 631.974.6706) when you are unavailable to
report for and or perform your scheduled duties. If you are unable to
contact me, you must notify (PMS). Email messages will not be
accepted, messages left with co-workers will not be accepted,
messages left with friends will not be accepted, and text messages
will not be accepted. You are required to notify me within the first
two (2) hours of the start time of your tour of duty. Sick leave
exceeding three (3) consecutive days will be supported by medical
documentation. I will approve/disapprove, and determine the status
of your absence from duty. Sick leave exceeding three (3)
consecutive days that cannot be supported by medical
documentation, or absence for medical reason without accrued sick
leave to cover the absence, may be charged to absent without leave
(AWOL).
Id. at 103.
MAJ Chereskin issued the appellant a second memorandum on June 15,
2017, which addressed her request to not attend the Cadet Summer Training
(CST) in 2017:
Upon review of the staff assistance visit (SAV) results conducted
April 24-28th, the current state of the supply program and room, and
your formal request to be removed from your duty at CST 2017, the
chain of command has decided to accommodate your request to
remain at ERAU during the summer. The decision to not have you
attend the 2017 CST does not set a precedent for future CSTs. While
remaining at ERAU over the summer, it is vital that you make the
most of the time without Cadets on campus and work to correct the
discrepancies that were noted by SFC Smith during the SAV.
Additionally, this is a vital time to reorganize the unit supply room
and work to develop SOPs that will help facilitate enduring supply
operations. You will be provided a list of tasks and due dates that
need to be met in order to fully justify retaining you at ERAU during
CST 2017. The task list, and due dates will be furnished in the next
24 hours.
AF, Tab 6 at 49.

11a

6
The appellant submitted a leave request, on August 1, 2017, for the period
of January 8-19, 2018.3 AF, Tabs 6 at 55, 21 at 37. On August 3, 2017, Todd D.
Mitchell, LTC, U.S. Army Professor of Military Science, denied her request
stating “same as last year, I am denying your request as too excessive. Everyone
else is only taking 2 weeks. »4 AF, Tab 21 at 37. In conjunction with this request,
LTC Mitchel issued the appellant a memorandum that provided:
1. Your leave is denied for the period of 08JAN 18 to 19JAN18. You did
indicate that your daughter was getting married on the 19JAN18. I want
you to attend this event.
2. Recommendation: In order to avoid you being away from the supply room
for over 37 consecutive calendar days and 25 work days, I request that you
alter your approved leave 14DEC17-8JAN18, which you have indicated is
Use or Lose. Please take some of your Use or Lose Leave and spread it out
over the reminder of the year in order for you to take a large portion of
leave in support of Christmas and your daughter’s wedding. This will allow
you to not be away from the supply room for an extended period of time
and use all of your Use or Lose Leave from 2017.
3. Please give me your decision no later than 11 August 2017.
4. POC for this memo is the undersigned, at COM (386) 226-6471 or
todd.d.mitchell.mil@mail.mil.
AF, Tab 6 at 55. The appellant also submitted a Family and Medical Leave Act of
1993 (FMLA) request on October 16, 2017, for the dates of January 5-16, 2018.
AF, Tab 35 at 27. LTC Mitchell noted that the appellant did not provide the
requested medical documentation, and she withdrew this request on November
27, 2017. Id. On November 14, 2018, the appellant submitted another request to
take sick leave from January 8-16, 2018, to take care of a family member with a

3

The appellant’s previous request for annual leave from December 14, 2017, to January
8, 2018, was already granted. AF, Tab 6 at 55,

4 In November 2016, the appellant requested leave from December 12, 2016, to January
18, 2017. AF, Tab 35 at 22. LTC Mitchell denied her request as “too excessive.” Id.

12a

7

serious health condition. AF, Tab 6 at 56. LTC Mitchell denied this request,
citing “mission requirements” and noting that “[b]beginning of semester 8JAN18,
Ranger Challenge 19JAN 18.” Id.
The agency scheduled another SAV to review the supply room for the week
of October 23-27, 2017.5 AF, Tab 6 at 50. The first day of the SAV, October 23,
2017, the appellant submitted a note from Kayla Ritzel, Advanced Registered
Nurse Practitioner (ARNP), Volusia Medical Center (VMC), which indicated that
the appellant had a doctor’s appointment that day, and she needed to be excused
from work from October 23-30, 2017. AF, Tab 18 at 31. In her notes, Ritzel
indicated that the appellant had “clinical complaints of anxiety attacks, not
sleeping, and muscle stiffness in arms” and that she requested a psychiatrist
referral. AF, Tab 32 at 26. Further, she stated the following:
She has been battling her anxiety for quite some time, now to the
point that she can’t sleep, is often shaking during the day and feels
like her heart beats fast. She states to be very overwhelmed at work,
feels “threatened,” but can’t leave as she needs the benefits.
Id. Finally, she stated that the appellant requested a note to have some days off
work to rest. Id. In response to the appellant’s sick leave request for the period of
time during the SAV, LTC Mitchell requested additional documentation as
follows:
1. I received your request for sick leave for the period of 23 Oct 2017 to 30
Oct 2017 and a note signed by Kayla Ritzel, ARNP dated Oct 23, 2017,
stating to please excuse you from work for this period. Because your
absence will exceed three consecutive workdays and coincides with the
notice that you were given approximately two weeks ago that Mr. Chuck
Clemen would be arriving today to conduct a SAV during this [very] same
period, I am requesting medical certification of incapacitation.
2. The medical certification needs to address and provide the duration of your
incapacitation. A statement similar to the following would meet this

5 The purpose of the visit was “to address the numerous documented deficiencies in [the
ERAU] Supply room.” AF, Tab 6 at 50.

13a

8
requirement: “Lilibeth Michelson underwent an outpatient procedure on
[date of procedure] and is incapacitated and limited from any significant
physical activity, including standing, walking, or sitting for extended
periods of time, for the period of [start date] to [end date]. At the
conclusion of this period, the employee will be able to return to full duty.”
Certifications stating “under my care, out of work, unable to work, or
excused until further notice” are not sufficient without the information
establishing the incapacitation.
3. The medical certification must come from a health care provider. It must be
signed and dated. Electronic signatures are acceptable. The definition of
health care provider is contained in 5 CFR 630.1202. The definition
includes licensed medical doctors as well as other health care providers
who are licensed [and] certified under federal or state law to provide the
service. Practitioners in the second category typically include physician’s
assistants and psychologists; their certifications are acceptable so long as
the service provided is consistent with the service their license allows them
to provide.
4. The required medical documentation is due within 15 calendar days of this
request, as provided by 5 CFR 630.405(b). If you are unable to obtain the
information within 15 calendar days despite your diligent, good-faith
efforts to do so, you may be granted a 15-day calendar day extension. If
you do not provide the required certification within 30 days of this request,
under 5 CFR 630.405, you would not be entitled to sick leave. As advised
you will be charged absence without leave (AWOL) until such time as the
documentation is received and reviewed. Upon determination that the
documentation is administratively sufficient, your status will be changed to
approve sick leave, otherwise your time will continue to be reflected as
AWOL.
5. If you have any questions about the requirement for medical certification,
please
contact
me at
(386) 226-6471
or by email at
todd.d.mitchell.mil@mail.mil.
AF, Tab 6 at 72-73. The appellant did not provide the documentation requested,
and her leave from October 23-30, 2017, was charged as AWOL. AF, Tab 6 at 36.
Again, the appellant refused to follow an order to certify her time accordingly. Id.

14a

9
After this occurrence, on December 12, 2017, LTC Mitchell placed the
appellant on leave restrictions for a period of 6 months.6 AF, Tabs 6 at 50-53; 18
at 50-54. In his memorandum, LTC Mitchell cited the previous counselings the
appellant had received concerning her “suspected abuse of sick leave” and stated
that her “unscheduled absences cause a hardship in the workplace and impacts
adversely on [their] ability to provide effective and efficient service to [their]
cadets and cadre and to correct documented deficiencies in the supply room.” Id.
On Wednesday, December 13, 2017, the appellant had a scheduled follow­
up appointment with Ms. Ritzel at VMC. AF, Tab 32 at 30-33. The appellant had
visited VMC the previous Friday, December 8, 2017, complaining of “sore throat,
headache, body aches, and fever,” stating that the symptoms began the previous
day. Id. She was diagnosed with pharyngitis (sore throat) and acute upper
respiratory infection. Id. On December 13th, Ms. Ritzel indicated the following:
Lilibeth Michelson is a pleasant 57 year old female that is here today
with clinical complaints of headache, sore throat, and productive
cough still. She is feeling better, but missed work on Monday and is
requesting a letter for work.
Also states that she sees Psych in a couple of weeks, but is
requesting a month off to help her anxiety, depression and get her
started on her new meds. States to be overwhelmed at work, is
harassed daily and she “needs a break”. Denies any other
complaints/concerns.
Id. Also on December 13, 2017, LTC Mitchell issued the appellant a notice of
proposed suspension based in part on her attendance related problems.7 AF, Tab 6
at 36-39. The notice of proposed suspension gave the appellant seven calendar
days to provide a response. Id.

6 The leave restriction letter is dated December 4, 2017, but LTC Mitchell emailed the
document to the appellant on December 11, 2017, at 9:50 a.m. because she was out of
the office. AF, Tab 18 at 50. The appellant did not sign the document as requested but
LTC Mitchell wrote a notation that stated the letter was issued to her on December 12,
2017. Id. at 54.
7 The appellant refused to sign the notice of proposed suspension. AF, Tab 5 at 39.

15a

10
On Friday, December 15, 2017, at 8:00 p.m., the appellant sent LTC
Mitchell an email with an attachment. AF, Tab 6 at 40-43. The attachment was a
note from the VMC, signed by Ms. Ritzel indicating:
This is a note to confirm that Lilibeth Michelson was seen in my
office today for a doctor’s appointment. Please excuse pt from work
from 12/18/17 until 01/19/18. Due to HIPPA laws, no more medical
information can be provided.
Id. On Tuesday, December 19, 2017, LTC Mitchell denied the appellant’s
request, stating that it did not comport with the leave restriction letter
requirements. Id. He further noted that the appellant had approved annual leave
from December 18, 2017, to January 8, 2018, but if she wanted to convert that to
sick leave, she would need to provide the necessary medical documentation. Id.
The appellant did not report for duty from January 9-19, 2018. AF, Tab 6 at 12.
On January 24, 2018, Nelson G. Kraft, COL, Commanding Officer, issued
a decision sustaining a 7-day suspension. AF, Tab 6 at 31-32. The appellant
acknowledged receipt of this decision on January 25, 2018. Id. Nonetheless, it is
undisputed that the appellant made an appearance at work on the first day of the
suspension, Monday, January 29, 2018.8 AF, Tab 6 at 12-16.
On March 16, 2018, LTC Mitchell proposed the appellant’s removal from
service citing one charge of AWOL for the above dates in January and two
charges of failure to follow directions for her behavior on January 29, 2018. AF,
Tab 6 at 12-16. While the appellant refused to sign the notice of proposed
removal, she was provided a copy on March 16, 2018. Id. The letter provided the
appellant with 15 calendar days from the date of receipt to provide a written
and/or oral reply. Id. The appellant submitted a written reply. AF, Tab 6 at 18-20.

8 The appellant visited VMC on January 25, 2018, and received a note from Ritzel to
excuse her “from work for sick leave” from January 25, 2018, to February 5, 2018. AF,
Tab 19 at 35. She also obtained a note from Ritzel that stated, “it is unlawful and
against HIPPA regulations for me to discuss any health care concerns with an employer
or outside party without the consent of the patient.” AF, Tab 19 at 36.

16a

11
On April 16, 2018, COL Kraft sustained the removal, effective April 16, 2018. Id.
at 39-45. This appeal followed.
Burden of Proof
The agency bears the burden of proving its charge by preponderant
evidence. 5 U.S.C. § 7701(c)(1)(B). A preponderance of the evidence is that
degree of relevant evidence that a reasonable person, considering the record as a
whole, would accept as sufficient to find that a contested fact is more likely to be
true than untrue. 5 C.F.R. § 1201.4(q). The agency must also establish the
existence of a nexus between the sustained charge and the efficiency of the
service.

5 U.S.C.

§

7513(a). Finally, the agency must demonstrate the

reasonableness of the penalty it has imposed. Douglas v. Department of Veterans
Affairs, 5 M.S.P.R. 280, 307-08 (1981). The appellant has the burden of proving
her asserted affirmative defenses by a preponderance of the evidence. 5 C.F.R. §
1201.56(C).
The agency proved its AWOL charge (Charge IT
To sustain an AWOL charge, the agency must prove that the employee was
absent and that the absence was not authorized or that a request for leave was
properly denied. See Cooke v. U.S. Postal Service, 67 M.S.P.R. 401, aff’d, 73
F.3d 380 (Fed. Cir. 1995) (Table); Boscoe v. Department of Agriculture, 54
M.S.P.R.

315,

325

(1992). However,

if

an

employee

has

provided

administratively acceptable evidence of incapacity, prior to an agency’s decision
to remove her on AWOL charges, the agency must grant her sick leave, regardless
of her failure to timely comply with the agency’s sick leave procedures. Atchley
v. Department of the Army, 46 M.S.P.R. 297, 301 (1990).
Here, it is undisputed that the appellant was absent from work on the dates
in January 2018 as provided in the notice of proposed removal. Further, it is
undisputed that LTC Mitchell denied the appellant’s request for sick leave. AF,
Tab 6 at 42. Prior to her absence, the only information she provided to the agency

17a

12
was the note from Ms. Ritzel dated December 15, 2017, which provided that the
appellant was seen in her office on that day9 and to excuse her from work from
December 18, 2017, to January 19, 2018. AF, Tab 6 at 40. This excuse fails to
adhere to requirements of the December 4, 2017 leave restriction letter in several
ways. See AF, Tab 6 at 50-53. Although it is expressly forbidden, the appellant
emailed LTC Mitchell the medical excuse and failed to call him within two hours
of her reporting time on December 18, 2017. While I understand the appellant
had preapproved annual leave for that date,10 she raised the issue of whether she
needed sick leave instead. If nothing else, the appellant should have called LTC
Mitchell prior to January 9, 2018, to determine the status of her sick leave. The
leave restriction letter is unambiguous that “[i]n the event of illness,” she was
required to call LTC Mitchell “within 2 hours of [her] start time” and it was “not
appropriate” to “send an email.” AF, Tab 6 at 51.
Further, the appellant’s request was not submitted on OPM Form 71.
Likewise, it did not address the need for the incapacitation with any particularity
or the appellant’s medical restrictions. While the note indicates that Ms. Ritzel
cannot provide information pursuant to HIPPA, the appellant could have given
her permission to provide limited information to meet the needs of the agency
requirements. Further, I find the appellant’s testimony that she believed this note
to sufficient and she was unable to access her email to know that it was denied
unpersuasive. See AF, Tab 39 at 29. As stated above, the VMC note utterly fails
to comport with the leave restriction letter.

9

It is unclear why Ms. Ritzel represented that the appellant visited her office on
December 15, 2017, when the appellant’s medical records clearly indicate she visited
VMC on December 13, 2017. AF, Tab 32 at 32-33.
10 As stated earlier, the appellant had approved annual leave until January 8, 2018. See
AF, Tab 6 at 55

18a

13
Moreover, regardless of whether she can access her email remotely, she
had the ability to contact the agency via telephone, and in light of the leave
restriction letter and the numerous memos addressing her use of sick leave, it is
not reasonable or an excuse that she failed to further communicate with her
employer prior to the date she was to return to work. Indeed, the fact that she
could travel internationally11 is an indicator that she was not incapacitated and
had the ability to contact the agency. Further, even when the appellant returned to
duty, she failed to provide clarifying information to agency officials. Based on
the above information, I find that the agency properly denied the appellant’s
request for sick leave. See Johnson v. General Services Administration, 46
M.S.P.R. 630, 634, affd, 944 F.2d 913 (Fed.Cir.1991) (Table); Cresson v.
Department of the Air Force, 33 M.S.P.R. 178, 181 (1987) (the employee is
responsible for requesting leave and providing the agency with the necessary
supporting medical documentation).
In her close of record submission, the appellant provided another note from
VMC signed by Anthony Lagana, ARNP, and dated October 25, 2018, which
provided:
Kayla Ritzel, ARNP, is no longer with our practice; however, my
name is Anthony Lagana, ARNP and I had the pleasure of seeing
Lilibeth Michelson in our office throughout what was a very difficult
time for her. Lilibeth was seen in our office on 12/13/2017. Based
upon our observations, Ms. Michelson needed to be off work until
1/19/18 for medical purposes due to her anxiety and depression. She
also needed to get acclimated to her new medication. During this
time frame Ms. Michelson was medically incapacitated and unable to
attend work.
AF, Tab 39 at 78 .
As an initial matter, even if it had been timely submitted, this note does not
comply with the leave restriction letter because it is conclusory and fails to

11 The appellant traveled to Panama during this period of time. AF, Tab 39 at 29.

19a

14
explain the appellant’s incapacitation. Further, I question its inherent validity as
the appellant’s medical records show that she was seen by Ms. Ritzel on
December 13th as a follow up visit to a sore throat, and while it is true that the
appellant complained of anxiety, the appellant requested the month off of work
for the condition. See AF, Tab 32 at 30-34. There is no indication that Ms. Ritzel
had independently determined that appellant was incapacitated or that she was
actually treating the appellant’s anxiety and/or depression. Indeed, there is no
suggestion that the appellant received treatment again until the following April.
While Mr. Lagana saw the appellant on December 8, 2017, there is no note that
she discussed her anxiety and/or depression with him and it is unclear what
information he based his October 2018 assessment upon. Further, the appellant
failed to provide this information to the agency in a timely manner even in
response to the notice of proposed removal. Thus, the agency’s AWOL decision
remains appropriate. See Atchley v. Department of the Army, 46 M.S.P.R. 297,
301 (1990) (an agency must grant sick leave if an employee provides
administratively-acceptable evidence of incapacity prior to the agency's decision
to impose discipline for AWOL). Based on the above evidence, I find that the
agency properly denied the appellant’s request for sick leave, and the AWOL
charge is SUSTAINED.
The agency proved charge of failure to follow directions ('Charge 2).
An agency may prove a charge of failure to follow instructions by
establishing that proper instructions were given to an employee and that the
employee failed to follow them, without regard to whether the failure was
intentional or unintentional. Hamilton v. U.S. Postal Service, 71 M.S.P.R. 547,
556 (1996).
Specification 1
Specification 1 provides:
On 25 January 2018, you were issued a written decision dated 24
January 2018, signed by COL Nelson Kraft notifying you of his

20a

15
decision to suspend you from duty without pay for seven (7) calendar
days with an effective date of 29 January 2018. Despite knowing you
were suspended and not to report to work, you ignored the directive
and reported to work on 29 January 2018.
AF, Tab 6 at 12. On January 24, 2018, Nelson G. Kraft, COL, Commanding
Officer, issued a decision sustaining the 7-day suspension. AF, Tab 6 at 31-32. In
the decision he stated:
I have concluded that a suspension will promote the efficiency of the
service and that a lesser penalty would be inadequate. Accordingly,
you will be suspended from duty without pay for seven (7) calendar
days beginning Monday, 29, January 2018 through Sunday, 4
February 2018. You will return to duty on Monday, 5 February 2018.
A Standard Form 50, Notification of Personnel Action, documenting
your suspension will be forwarded separately. The suspension will
become a permanent part of you Official Personnel Folder (OPF).
This action is being taken in accordance with the provisions of Army
Regulation 690-700, Chapter 751, Discipline.
Id. The appellant acknowledged receipt of this decision on January 25, 2018. Id.
The appellant does not dispute that she came to work on January 29, 2018,
but asserts that she “had previously been informed by CPOL (i.e. the predecessor
to CPAC) that [she] needed an SF-50 for a suspension to be effective.” AF, Tab
39 at 29-30. Thus, she emailed CPAC to determine if a suspension SF-50 had
been issued and was informed that it had not been issued at that time. Id The
appellant testified that CPAC failed to inform her that her “belief that [she]
needed an SF-50 for the suspension to be effective was inaccurate.” Id. She
further testified that she woke up worried on January 29, 2018, because the SF-50
had not been issued and she could not access her email at home. Id. Thus, she
“went to the office for the sole purpose of checking [her] email to see if a copy of
the SF-50 had been emailed to” her and that she “did not work on any
assignments, nor complete any tasks.” Id.
COL Kraft’s letter is unambiguous that the appellant was to be suspended
on January 29, 2018. While it does state that an SF-50 will be issued, it does not
indicate that the suspension will be held in abeyance until CPAC issues the SF-

21a

16
50. It is common in the federal government for the SF-50 to be issued after the
personnel action takes place. Indeed, I question the veracity of the appellant’s
testimony in light of her long federal career and the fact that she had previously
been suspended in 2013. See AF, Tab 35 at 20-21. Even assuming she was in fact
confused, that does not excuse her failure to adhere to the suspension and not go
to work. To the degree that the appellant was unsure, she had the ability to either
call her command or CPAC that morning to ensure she was in compliance with
the suspension.12 I find that the agency proved specification 1 by preponderant
evidence.
Specification 2
Specification 2 provides:
On 29 January 2018, CPT Adam Karlewicz became aware that you
were in the supply room. This was unauthorized based upon the
notification of suspension that you received on 25 January 2018.
CPT Karlewicz ordered you to stop working, close the supply room
and leave the premises due to your suspended status. You failed to
comply. Embry-Riddle Public Safety was contacted to assist in
ensuring you left the premises.
AF, Tab 6 at 13.
CPT Karlewicz wrote in a contemporaneous statement that on January 29,
2018, at 9:15 a.m., he went to the appellant’s office with CPT Salome Sotilleo
and “ordered [the appellant] that she stop working, close the supply room, and
leave the premises because she was officially suspended by COL Kraft.” AF, Tab
6 at 85. He further stated that the appellant began to argue with him, and he said,
“Ms. Michelson, you must leave now.” Id. CPT Sotilleo signed a statement that
provided that she was present on January 29, 2018, at 9:15 a.m., when CPT
Karlewicz informed the appellant that she was on a week suspension; not
authorized to be at work; and must leave the building. AF, Tab 6 at 84.

12 It is also unclear why she decided to go to the facility instead of call agency officials
in light of the fact that VMC had deemed her too sick to work. See AF, Tab 19 at 35.

22a

17
The appellant asserts that CPT Karlewicz never told her to leave the
premises, and because English is her second language, she did not know what the
word meant. AF, Tab 39 at 30. She asserts that she complied with his directive
when she left the supply room and went to the computer lab. Id.
It is simply not believable that the appellant does not understand the word
“premises” or that she failed to understand that she was not authorized to be there
at that time. I credit CPT Karlewicz and CPT Sotilleo that the appellant was
adequately informed that she was not authorized to be at the ROTC facility on
that date and was asked to leave. Thus, I find that the agency proved specification
2 by preponderant evidence, and Charge 2 is SUSTAINED.
The agency proved charge of creating a disturbance (Charge 3T
The sole specification concerning this charge is as follows:
On 29 January 2018, Embry-Riddle Public Safety was contacted to
assist in removing you from the premises when you failed to comply
with instructions that suspended you from duty beginning on 29
January 2018. When Officer Collins arrived at the office, you had
vacated the supply room, but it was determined that you were still on
the premises and in the ROTC building. Christian Vanlaarhoven was
requested to leave her work and check the Women’s restroom.
During her search of the restrooms, Air Force University Liaison,
Marie Rolff stated that you had gone into the ROTC computer lab.
You were located in the computer lab. Officer Collins directed that
you vacate the premises. Your failure to comply with the initial
directive to vacate the premises resulted in an unnecessary disruption
in the work place.
AF, Tab 6 at 13.
The appellant argues that this charge should be spilt because it is based on
more than one act, i.e., failure to follow a directive and creating a disturbance.
AF, Tab 39 at 11-12. Rather than split this charge, I believe the “failure to follow
directive” portion of this charge is subsumed with Charge 2. See, e.g., Guerrero
v. Department of Veterans Affairs, 105 M.S.P.R. 617,

9 (2007) (merger is

appropriate where multiple charges require the same elements of proof and are
based on the same factual specifications); see also Alvarado v. Department of the

23a

18
Air Force, 103 M.S.P.R. 1, f 18 (2006) (finding that, where two charges are
based on the same act of misconduct and proof of one charge automatically
constitutes proof of the other, the charges should be merged). However, I believe
that the essence of this charge involves the issue of whether the appellant created
a disturbance when she failed to leave the premises. An agency is required to
prove only the essence of its charge, and need not prove each factual
specification supporting the charge. Hicks v. Department of the Treasury, 62
M.S.P.R. 71, 74 (1994), affd, 48 F.3d 1235 (Fed.Cir.1995) (Table). To prevail on
a charge of creating a disturbance in the workplace, the agency is required to
prove that an actual disturbance was created, although the length or duration of
the disturbance is a factor bearing upon the seriousness of the misconduct and not
an essential element of the charge. Hanner v. Department of the Army, 55
M.S.P.R. 113, 118 (1992).
CPT Karlewicz wrote in his statement that he gave the appellant five
minutes to leave and when he noticed her car was in the parking lot, he called
ERAU Public Safety. AF, Tab 6 at 85. He and the officer were required to search
the ROTC building to locate the appellant, and finally located her in the Air
Force’s computer lab. Id. They also requested a female employee to check the
ladies restroom. AF, Tab 6 at 83. The appellant again argues that she did not
understand that she was required to leave the ROTC premises per CPT Karlewicz
orders. AF, Tab 39 at 30-31. She asserts that she was not “hiding,” but, instead,
was trying to get access to the facility computer lab to determine whether CPAC
had issued the suspension SF-50. Id.
As stated earlier, I do not find the appellant’s testimony that she did not
understand the directive persuasive, and when she failed to leave the facility, it
necessitated agency personnel and the police to conduct a search for her. While
she did not resist leaving once approached by them, her continued presence in the
workplace created a disturbance by the mere fact that they had to search for her

24a

19
and escort her out of the building. Thus, I find that the agency proved Charge 3
by preponderant evidence, and the charge is SUSTAINED.
The agency proved nexus.
An agency must establish nexus by showing that the employee’s conduct
(1) affected her or her coworker’s job performance; (2) affected management’s
trust and confidence in the employee’s job performance; or (3) interfered with or
adversely affected the agency’s mission. Johnson v. Dep’t of Health & Human
Services, 86 M.S.P.R. 501, f 1(2000), aff’d, 18 Fed.Appx. 837 (Fed.Cir. 2001),
aff’d sub nom., Delong v. Dep’t of Health & Human Services, 264 F.3d 1334
(Fed.Cir.2001), cert, denied, 536 U.S. 958 (June 28, 2002). All of the charged
behavior effected and/or occurred at work. Miles v. Department of the Navy, 102
M.S.P.R. 316, f 11 (2006) (finding that it is well settled that there is sufficient
nexus between an employee’s conduct and the efficiency of the service where the
conduct occurred at work.)
The appellant did not prove her affirmative defenses.
Even if the agency meets its burden of proof on the merits of its decision,
the decision may not be sustained if the appellant proves by preponderant
evidence that: (1) in arriving at its decision, the agency committed harmful
procedural error in the application of its procedures; (2) the decision was based
on a prohibited personnel practice as described in 5 U.S.C. § 2302(b), including
unlawful discrimination or reprisal; or (3) the decision was not in accordance
with law. 5 U.S.C. § 7701(c)(2); 5 C.F.R. § 1201.56(a)(2)(iii), (b). The appellant
bears the burden of proving her affirmative defenses by preponderant evidence. 5
C.F.R. § 1201.56(b)(2). Here, the appellant raised the affirmative defenses of due
process violation and retaliation for prior EEO activity.
Due Process
The appellant asserts that the deciding official failed to consider her reply,
and thus, violated her due process rights. When an agency takes an adverse action

25a

20

against an employee pursuant to chapter 75, the employee against whom the
action is proposed is entitled to “(1) at least 30 days’ advance written notice ...
stating the specific reasons for the proposed action; (2) a reasonable time, but not
less than 7 days, to answer orally and in writing and to furnish affidavits and
other documentary evidence in support of the answer; (3) be represented by an
attorney or other representative; and (4) a written decision and the specific
reasons therefor at the earliest practicable date.” 5 U.S.C. § 7513(b). These
statutory provisions are consistent with the extension of the Fifth Amendment
Due Process Clause to an individual's loss of government employment in
Cleveland Board of Education v. Loudermill, 470 U.S. 532, 105 S.Ct. 1487, 84
L.Ed.2d 494 (1985). In Loudermill, the Supreme Court explained that “the root
requirement” of due process is for the employee to receive “an opportunity for a
hearing before he is deprived of any significant property interest.” Id. at 542, 105
S.Ct. 1487 (emphasis in original). This requires an agency to offer the employee a
“meaningful opportunity to invoke the discretion of the decision maker” before
the agency effects the personnel action. Id. at 543, 105 S.Ct. 1487. Minimum due
process requires that the employee have oral or written notice of the charges
against her, an explanation of the employer's evidence, and “the opportunity to
present reasons, either in person or in writing, why proposed action should not be
taken.” Id. at 546, 105 S.Ct. 1487.
In her submission, the appellant submitted Manuel Rosales, an agency
employee at South Carolina State University. AF, Tab 39 at 86-88. In his sworn
statement, Mr. Rosales stated that in October 2017, he we told by BDE
Headquarters Supply Section that there was a “strong possibly” that the
appellant’s position would soon be vacant, and he was told that Chuck Clemen13
conducted an inspection at ERAU. Id. He then called Mr. Clemen and asked if the

13 Mr. Clemen conducted the October 23-30, 2017 SAV on the appellant’s supply room.
AF, Tab 6 at 72.

26a

21
Supply Technician position would soon be available, and Mr. Clemen replied
“yes but it is a long story.” Id. Mr. Clemen never called Mr. Rosales back. Id.
The appellant also asserts that the deciding official, COL Kraft, failed to consider
her written reply as he filled out the Douglas Factor worksheet prior to her reply.
AF, Tab 39 at 24.
Mr. Rosales testimony only shows that the agency was having ongoing
performance problems with the appellant as evidenced by the two SAVs that are
part of this record. In light of these issues and her ongoing sick leave issues, it is
not surprising that agency personnel would speculate about the appellant’s status.
This speculation, however, had nothing to do with the appellant’s decision to
submit an improper sick leave request or to appear at work while on suspension.
Further, there is no evidence that this speculation influenced COL Kraft.
With regard to the Douglas Factor worksheet, COL Kraft testified that he
in fact considered her reply and that the Douglas Factor worksheet was dated in
error. AF, Tab 35 at 13-14. I have no reason to doubt this testimony. Indeed, the
decision letter discusses the appellant’s reply. See AF, Tab 6 at 18-20. I find that
the appellant did not prove her due process violation affirmative defense.
EEO Retaliation
'

The appellant raised a claim of reprisal based on EEO activity, which is an

allegation of a prohibited personnel practice under 5 U.S.C. § 2302(b)(1).
Federal employees are protected against discrimination based on race, color, sex,
religion, and national origin, as well as retaliation for the exercise of Title VII
rights, by 42 U.S.C. § 2000e-16.

Savage v. Department of the Army, 122

M.S.P.R. 612, ]f 36-37 (2015). The Board has held that a violation is established
where the appellant shows that discrimination or retaliation “was a motivating
factor in the contested personnel action, even if it was not the only reason.” Id.,
f 41.

To establish a prima facie case of retaliation for engaging in protected

activity, the appellant must show that: (a) she engaged in protected activity; (b)
the accused official(s) knew of the protected activity; (c) the adverse employment

27a

22
action under review could, under the circumstances, have been retaliation; and (d)
there was a genuine nexus between the retaliation and the adverse employment
action. See Warren v. Department of the Army, 804 F.2d 654, 656-58 (Fed. Cir.
1986); Cloonan v. United States Postal Service, 65 M.S.P.R. 1, 4 (1994).

To

establish a genuine nexus between the protected activity and the adverse
employment action, the appellant must prove that the employment action was
taken because of the protected activity. Cloonan, 65 M.S.P.R. at 4, n.3.
Here, the appellant asserts that she has filed several EEO complaints and in
March 2017, she participated in an EEO hearing. AF, Tab 39 at 25. She further
asserts that twelve days prior to her removal, she amended her complaint.

Id.

Further, in reply to her notice of proposed removal, she informed COL Kraft of
her EEO activity. AF, Tab 18 at 5-17. Notwithstanding management’s knowledge
of the appellant’s EEO activity, there is no evidence of retaliatory intent.
Likewise,

there is no

evidence that COL Kraft, the deciding official,

inappropriately considered the appellant’s protected activity. Thus, although the
appellant engaged in protected activity, there is no evidence that it was a
motivating factor in the decision to remove her from service.
The agency’s removal decision does not exceed maximum limits of
reasonableness.
When all of the agency’s charges are sustained, but some of the underlying
specifications are not sustained, the agency’s penalty determination is entitled to
deference and should be reviewed only to determine whether it is within the
parameters of reasonableness. Payne v. U.S. Postal Service, 72 M.S.P.R. 646, 650
(1996). In applying this standard, the Board must take into consideration the
failure of the agency to sustain all of its supporting specifications. Id. at 651.
That failure may require, or contribute to, a finding that the agency’s penalty is
not reasonable. Id. In such a case, the Board will look for evidence showing that
the agency would have imposed the same penalty for the sustained specifications.
Laniewicz v. Department of Veterans Affairs, 83 M.S.P.R. 477,

28a

9 (1999).

23

Nevertheless, the Board’s function is not to displace management’s responsibility
or to decide what penalty it would impose but to assure that management’s
judgment has been properly exercised and that the penalty selected by the agency
does not exceed the maximum limits of reasonableness. Parker v. U.S. Postal
Service, 111 M.S.P.R. 510, f 9, aff’d, 355 F. App’x 410 (Fed.Cir.2009). Thus the
Board will modify a penalty only when it finds that the agency failed to weigh the
relevant factors or that the penalty the agency imposed clearly exceeded the
bounds of reasonableness. Id. If the agency’s penalty is beyond the bounds of
reasonableness, the Board will mitigate only to the extent necessary to bring it
within the parameters of reasonableness. Id.
In his Douglas Factor worksheet, COL Kraft noted that the charged conduct
was considered “serious in nature, particularly as [the appellant] fail[ed] to
follow policy and instructions after being repeatedly instructed,” and that she
“repeatedly defied management directives and consistently challenge[d] work
directives issued.” AF, Tab 6 at 21-23. Further he noted her 3-day suspension in
2013 and 7-day suspension in 2018 as aggravating factors. Id. COL Kraft found
that “[a]ll confidence has been lost with [the appellant] in terms of
trustworthiness

and professionalism and her performance of day-to-day

responsibilities.” Id. Noting that the appellant has not shown rehabilitation
potential, COL Kraft also found that she was aware of the agency’s requirements.
Id. While acknowledging that the appellant presented additional information, he
did not find it to be mitigating. Id.
The appellant argues that COL Kraft’s analysis should be set aside because
he failed to consider several significant mitigating factors. AF, Tab 39 at 19-20.
She asserts that her behavior was “harmless and unintentional” and that she had
“a good-faith, reasonable belief that she needed to have a copy of the SF-50 in
order for her suspension to be effective.” Id. Further, the appellant asserts that
COL Kraft failed to consider the appellant’s twenty-four years of federal service
or her anxiety diagnosis. Id.

29a

24

After considering the record, I find that it demonstrates that the deciding
official properly and thoroughly considered all of the relevant Douglas factors.
The appellant’s utter failure to accept responsibility for her behavior
demonstrates a lack of rehabilitation potential, and I have no confidence that she
would modify her behavior if returned to work. I find it particularly egregious
that she precipitously disregarded her employer’s unambiguous instructions about
sick leave and added two additional weeks to her holiday vacation, missing the
beginning of the semester. She further exhibited contempt for her employer’s
authority when she showed up at the ERAU ROTC facility when on suspension.
Indeed, the record is replete with examples of how the appellant disregarded
direct orders. Accordingly, I find that the penalty of removal does not exceed the
bounds of reasonableness and that it promotes the efficiency of the federal
service.
DECISION
The agency’s action is AFFIRMED.

FOR THE BOARD:

IS/

Sherry Linville
Administrative Judge
NOTICE TO APPELLANT
This initial decision will become final on January 25, 2019. unless a
petition for review is filed by that date. This is an important date because it is
usually the last day on which you can file a petition for review with the Board.
However, if you prove that you received this initial decision more than 5 days
after the date of issuance, you may file a petition for review within 30 days after
the date you actually receive the initial decision. If you are represented, the 30day period begins to run upon either your receipt of the initial decision or its
receipt by your representative, whichever comes first. You must establish the

30a

